                                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                                         Office of Inspector General
                                                                         Washington. D.C. 20230



January 3 I, 20 13

MEMORANDUM FOR:                    Lawrence E. Strickling
                                   Assistant Secretary for Communications and Information
                                   National Telecommunications and Information Administration



FROM: 	                            Ann C. Eilers
                                   Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                         Proper Classification and Strengthened Monitoring of
                                   Subrecipients Are Needed for the Broadband Technology
                                   Opportunities Program (OIG-13-0 13-A)

This is our final memorandum on the effectiveness of subrecipient monitoring for the National
Telecommunications and Information Administration 's (NTIA's) Broadband Technology
Opportunities Program (BTOP). As of January 26, 20 12, recipients responsible for
approximately $3.8 billion in BTOP awards reported subrecipient awards of $850 million and
vendor payments of $602 million.

Our audit objectives were to:

    • 	 assess whether subrecipients and vendors were properly classified 1 and

    • 	 determine whether adequate controls (e.g., reporting, site visits, and subrecipient
        consultations) were in place to ensure effective subrecipient monitoring and compliance
        with award terms and conditions.
A ppendix A contains the objectives, scope, and methodology for this audit.

O n January 18, 20 13, we received NTIA's response to our draft memorandum, which
acknowledged our recommendations and described the steps that NTIA is taking to address
them. Where appropriate, we have modified our final memorandum based on discussions with
N TIA officials and this response. The formal NTIA response is included as appendix C. The final
r eport will be posted on the Office of Inspector General's website pursuant to section 8L of
the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. The plan should outline the actions
you have taken or propose to take to address each recommendation.



1
 Subrecipients are nonfederal entities that receive Recovery Act funding from recipi ents to help carry out a
portion or scope of work for a proj ect or program. Vendors provide goods/services in support of th e award and are
not subject to the compliance requirements of the federal program. NTIA, August 18, 2010. FACT SHEET:
Broadband Technology Opportunities Program Subrecipien ts and Contractors.
http://www2.ntia.doc.gov/files/fact sheet subrecipients and contractors 08182010v2.pdf.
Background

From the time the President signed the American Recovery and Reinvestment Act of 2009
(Recovery Act) 2 into law, the Department of Commerce Office of Inspector General has
provided oversight of NTIA’s administration of the $4.4 billion 3 BTOP program. At the
conclusion of the BTOP award process on September 30, 2010, NTIA had awarded 233 grants.
Over time, this number has decreased slightly to 225 due to grant cancellations, modifications,
and terminations.

As of January 26, 2012, when we initiated this audit, the FederalReporting.gov data extract
reported 217 BTOP awards with payments and disbursements greater than $100,000. We
reviewed these awards for this audit. We divided the recipients into subgroups based on
whether they made payments and disbursements to subrecipients, vendors, or both (see table
1).

Effective monitoring of subrecipients is necessary to ensure that project costs are allowable,
allocable, and reasonable and that program goals are achieved. Recipients, rather than NTIA,
are directly responsible for the oversight of subrecipients. NTIA, in turn, is responsible for
ensuring that recipients effectively oversee their projects. This includes ensuring that the
recipient adequately selects subrecipients and has controls in place to effectively and efficiently
complete the projects.

    Table 1. Universe of BTOP Recipients Reviewed

                                                     Reported                           Reviewed

          Recipient Category              Awards              Dollars         Awards             Dollars
     Projects with no subrecipients or
     vendors                                  82             $967 million         10            $381million
     Projects where only vendors
     received payments                        81              1.5 billion         20            954 million
     Projects where only subrecipients
     received disbursements                   28             408 million          13            232 million
     Projects where subrecipients and
     vendors received
     disbursements/payments                   26             867 million          13            375 million

                     Total                      217          $3.7 billion          56          $1.9 billion
    Note: All recipients described in table reported awards greater than $100,000.
    Source: www.FederalReporting.gov




2
 Pub. L. No. 111-5.

3
 The Recovery Act established BTOP with $4.7 billion. A $302 million rescission occurred in August 2010, reducing 

the total funding.


                                                         2
Findings and Recommendations

While NTIA and the recipients of BTOP awards have taken steps to oversee subrecipients,
additional operating procedures should be implemented. Specifically, our audit found the
following:

     •	 two of the 56 awards reviewed (4 percent) have a vendor that may not be properly
        classified,

     •	 eleven of 26 awards 4 reviewed (42 percent) may not be completed on time,

     •	 subrecipient monitoring plans are not in place for 3 of 26 awards reviewed (12 percent),

     •	 seven of 26 subrecipient agreements reviewed (27 percent) do not contain all required
        provisions, and

     •	 for 15 of 56 awards reviewed (27 percent), recipients are not reporting required 

        information to FederalReporting.gov.


Appendix B breaks down the findings and other matters by recipient category and includes the
number of recipients and dollar values for each finding.

    1.	 Subrecipients May Not Be Properly Classified

Recipients of 2 of 56 awards (4 percent), totaling $169.7 million, identified entities as vendors—
despite evidence that they may be more appropriately classified as subrecipients—based on
recipient determinations and/or discussions with NTIA. In the two questioned classifications,
single vendors received more than 95 percent of project expenditures, resulting in a great
dependency on the vendor for a timely and successful completion of the projects.

Confusion about the classifications subrecipient and vendor and the use of them interchangeably
may lead to inadequate oversight and improper reporting by recipients. Also, failure to properly
distinguish between subawarding a grant (to a subrecipient) and procurement (contracting with
vendors) could result in inappropriate flow down of requirements to subrecipients and
vendors, subjecting the recipient to increased audit risk, particularly if they incorrectly classify a
subaward as procurement. An improper identification of an entity as a subrecipient could
permit deviation from the Contract Cost Principles and Procedures, 5 permitting incurred costs
that are not allowable, allocable, or reasonable. Profit is permitted for vendors but is not
permitted for subrecipients. 6 The proper classification of an entity as a subrecipient could
identify costs that are not allowable and result in the return of funds to Treasury or the
expansion of the projects.




4
  Throughout the report, findings for 26 awards refer to the reviewed awards that reported subrecipient

disbursements.

5
  48 C.F.R. Part 31.

6
 U.S. Agency for International Development, February 18, 2010. Profit Under USAID Assistance Instruments.

http://transition.usaid.gov/policy/ads/300/303sai.pdf. 


                                                       3
      Recommendation

      1.	 We recommend that the Assistant Secretary for Communications and Information
          direct BTOP personnel to review their grants, including the two vendors identified, for
          subrecipient relationships to help ensure that subrecipients are properly classified. If
          NTIA determines that the two vendors were improperly identified, NTIA should
          request that the entities be appropriately classified and funds appropriately accounted
          for.

    II. Recipients May Not Complete Projects on Time

Recipients of 11 of 26 awards (42 percent), totaling $198.6 million, may not complete their
projects by the dates included in the grant awards. BTOP guidelines state that all applicants,
regardless of category, must complete the project within 3 years. 7 Recipients cited various
reasons for the delays; however, for 4 of the 11 awards (36 percent), delays involved
subrecipients (e.g., delays in signing subrecipient agreements and processes used by
subrecipients to invoice recipients). If recipients do not meet required deadlines for completing
BTOP projects, they will not comply with programmatic and federal grants administration rules
and requirements. As such, the projects could be terminated unless a waiver to extend the
projects is obtained.

    Recommendation

      2.	 We recommend that the Assistant Secretary for Communications and Information
          direct BTOP personnel to review all projects to make sure they will be completed on
          time, accelerate those projects at risk of not meeting their 3-year completion dates, and
          assist the recipients in addressing potential risks to projects or issues delaying their
          progress.

    III. Subrecipient Monitoring Plans Are Not in Place, and Subrecipient

         Agreements Do Not Contain All Required Provisions


During our audit of the 56 awards, we noted several instances where subrecipient oversight
could be strengthened. This includes ensuring that subrecipient monitoring plans are in place
and that all required provisions are included in subrecipient agreements.

    A.	 Subrecipient monitoring plans are not in place or are inadequate

For 3 of 26 awards (12 percent), representing $14.5 million, subrecipient monitoring plans were
not in place. For an additional 2 of 26 awards reviewed (8 percent), totaling $46.9 million,
subrecipient monitoring plans were inadequate—for example, were missing important
monitoring steps. OMB Circular A-133, section 400(d)(3), identifies recipient responsibilities to
“monitor the activities of subrecipients as necessary to ensure that federal awards are used for
authorized purposes in compliance with laws, regulations, and provisions of contracts or grant
agreements and that performance goals are achieved.” Although OMB Circular A-133 does not
specifically mention using monitoring plans, it is a best practice. Without monitoring plans in
place, it is not clear that subrecipient compliance with award terms and conditions is being
monitored.

7
    Broadband Technology Opportunities Program, 74 Fed. Reg. 33104, 33110 (July 9, 2009).

                                                         4
    B.	 Recipients did not include required BTOP provisions in subrecipient agreements

For 7 of 26 recipient awards (27 percent), totaling $84.3 million, the subrecipient agreements
did not contain all required BTOP provisions, such as applicable cost principles, Recovery Act
award terms, and audit requirements. Department of Commerce Standard Terms and
Conditions J.02.a 8 states that recipients must require all subrecipients to comply with the
provisions of awards. Reasons provided by recipients for the lack of these provisions within the
agreements included (1) the subrecipient was included in the original grant application and had
been through the due diligence process and (2) the recipient was not aware that all provisions
needed to be included in subrecipient agreements. If the provisions are not documented within
the subrecipient agreement, then the subrecipients may not be complying with the terms and
conditions of the award. Failure by recipients to comply with award terms and conditions could
result in adverse action being taken against recipients, such as suspension or termination of the
grant. 9

     Recommendations

     We recommend that the Assistant Secretary for Communications and Information direct
     BTOP personnel to:

     3.	 work with recipients to ensure that they have effective monitoring mechanisms in place,
         such as subrecipient monitoring plans, to facilitate sufficient monitoring, and

     4.	 reemphasize to recipients the importance of including all BTOP provisions in
         subrecipient agreements and the importance of meeting the terms and conditions of the
         award.

    IV. Recipients Are Not Reporting All Required Information in 

        FederalReporting.gov


For recipients that reported no subrecipients or vendors, we noted that (a) 7 of the 10
recipients (70 percent) should have reported vendor payments but did not report any and (b) 2
of the 10 recipients (20 percent) did not report all required vendor payments. These 9 awards
comprised $370 million in grant funds. Additionally, we reviewed 20 awards that reported only
vendor payments. Of these, we noted that 6 (30 percent), totaling $295.2 million, did not
report all required vendor payments. The recipients stated that they were unaware of the
requirement of OMB M-09-21 10 that all individual payments to vendors greater than $25,000
must be reported in www.FederalReporting.gov. Consequently, they are not in compliance with
Recovery Act reporting requirements associated with transparency, and financial information
available to the public is incomplete and/or incorrect.




8
  U.S. Department of Commerce, March 2008. Financial Assistance Standard Terms and Conditions. Washington,

D.C.: Department of Commerce, 15.

9
  NTIA, February 2012. BTOP Recipient Handbook, Version 2.0, 127.

http://www2.ntia.doc.gov/files/Recipient_Handbook_v1.1_122110.pdf. 

10
   Office of Management and Budget, June 22, 2009. Implementing Guidance for the Reports on Use of Funds

Pursuant to the American Recovery and Reinvestment Act of 2009, OMB M-09-21. Washington, D.C.: OMB.


                                                      5
       Recommendation

       5.	 We recommend that the Assistant Secretary for Communications and Information
           direct BTOP personnel to notify recipients of the vendor/subrecipient payment
           reporting requirements to www.FederalReporting.gov pursuant to OMB M-09-21 and
           develop procedures to monitor reporting and ensure compliance.

     Other Matters

During our audit, we noted other matters not directly related to subrecipient monitoring that
we believe warrant attention. These matters include recipients’ financial records that are
inconsistent with the information available at Recovery.gov and vendor-related issues.

     A.	 Recipients’ financial information is not reconciled to Recovery Act website

For 12 of 56 awards (21 percent), totaling $349.5 million, recipients’ financial information did
not agree with information on Recovery.gov for the reporting quarter ending March 31, 2012.
As such, recipients were not in compliance with requirements to report correct financial
expenditures into www.FederalReporting.gov. 11 This website’s information is rolled into
www.Recovery.gov, which makes Recovery Act financial data available to the public. We found
various reasons for the inconsistent information (e.g., not including all expenses in the general
ledger, improperly recording depreciation, and recipients not being aware of requirements).
These deficiencies can result in incorrect financial information being presented to the public,
and therefore, recipients are not in compliance with Recovery Act reporting requirements.

       Recommendations

       We recommend that the Assistant Secretary for Communications and Information direct
       BTOP personnel to:

       6.	 have grant officers remind recipients of the importance of reconciling financial
           information that they maintain with expenditures reported on the www.Recovery.gov
           website and

       7.	 provide additional guidance to recipients as to what information should be reported as
           federal expenditures and the importance of consistency between the reported
           expenditures and information included in the recipients’ financial records.

       B.	 Vendor-related issues

     We noted additional vendor-related concerns, including the recipients’ review of vendors for
     suspension and debarment, failure to compete vendor contracts, and failure to maintain
     vendor contracts:

       •	 Vendors are not reviewed for suspension and debarment. For 33 of 56 awards (59 percent),
          totaling $1.2 billion, recipients are not periodically reviewing vendors and/or the
          principals 12 of these organizations for suspension and debarment. In addition, for 1 of
          the 56 (2 percent), totaling $25.7 million, the current principal of a vendor receiving
11
     OMB, Implementing Guidance for the Reports on Use of Funds.

12
     Examples of principals include the owner, proprietor, sole shareholder, or director.


                                                            6
        payments on the recipient’s award was included on the Excluded Parties List System
        (EPLS). NTIA informed us that this was not the original contract principal at the time of
        the award—a change in contract principal had been made while the project was already
        in process.

        According to Executive Order 12549 13 and the OMB Guidelines to Agencies on
        Governmentwide Debarment and Suspension, 14 a recipient must verify that the
        person/organization is not excluded or disqualified by (1) checking the EPLS, (2)
        collecting a certification from that entity, or (3) adding a clause or condition to the
        covered transaction with that entity. Recipients should also check for suspension and
        debarment of their vendors periodically throughout the grant term.

        A recipient may not enter into a covered transaction if the other party is excluded and
        may not use the services of an excluded party as a principal under a covered
        transaction. Recipients may continue covered transactions with an excluded party if the
        transactions existed before the party was excluded but should consider terminating and
        may not renew or extend covered transactions. 15

        Recipients were unaware of the requirement to review principals of organizations for
        suspension and debarment and do not currently check suspension and debarment
        periodically throughout the grant term. Suspension and debarment actions protect the
        government from doing business with individuals/companies/recipients who pose a
        business risk. If recipients are not reviewing vendors for suspension and debarment,
        they are not adequately protecting taxpayer funds.

     •	 Not all vendor contracts competed for BTOP grants. Five of 56 awards (or 9 percent),
        totaling $106.6 million, did not compete all vendor contracts awarded for BTOP grants.
        OMB Circular A-110, 16 section 43, requires that “all procurement transactions shall be
        conducted in a manner to provide, to the maximum extent practical, open and free
        competition.” Recipients stated that their understanding from NTIA was that if the
        recipient had worked with the vendor previously, they did not have to compete the
        contract. As such, we found that some recipients were not in compliance with federal
        regulations mandating open and free competition. Some recipients also noted that
        contracts could not be competed based on the goods or services received (e.g.,
        contracts for lines and pole leases in one county), which we deem reasonable.

     •	 Recipients do not maintain vendor contracts. For 3 of 56 awards (or 5 percent), totaling
        $17.8 million, recipients did not provide vendor contracts. This implied that they have
        not maintained them. Department of Commerce regulations require that services under
        financial assistance awards have contracts that contain certain provisions. 17 Without a
        contract, recipients are not in compliance with departmental regulations and therefore


13
   Exec. Order No. 12,549, 51 Fed. Reg. 6370 (Feb. 21, 1986).

14
   2 C.F.R. § 180.300.

15
   2 C.F.R. § 180.315.

16
   Although OMB Circular A-110 applies only to awards to institutions of higher education, hospitals, and other

nonprofit organizations, 15 C.F.R. § 24.36 includes a similar requirement for awards to state and local

governments.

17
   15 C.F.R. §§ 14.48, 24.36.


                                                         7
          may not be able to ensure that the procurement, receipt, and payment for goods and
          services comply with laws, regulations, and the provisions of the agreements.

       Recommendations

       We recommend that the Assistant Secretary for Communications and Information direct
       BTOP personnel to:

       8.	 encourage recipients to review vendors and their principals for suspension and 

           debarment throughout the life of the grant,


       9.	 encourage recipients to promote proper competition in the vendor selections, and

       10. communicate to recipients the importance of maintaining vendor contracts.

  Summary of Agency Response and OIG Comments

In responding to our draft memorandum, NTIA acknowledged our recommendations and
described the steps they are taking to address them. We acknowledge that NTIA has dedicated
significant efforts to strengthening subrecipient monitoring and look forward to the action plan
that NTIA will submit to respond to the memorandum.

We would like to express our thanks to your staff for courtesies shown to us during our audit.
Please direct any questions regarding this audit to Chris Rose, Senior Auditor, Recovery Act
Task Force, at (202) 482-5558 or crose@oig.doc.gov, and refer to the memorandum title in all
correspondence.



cc:	      Anthony Wilhelm, Program Director, BTOP
          Aimee Meacham, Director, Program Services, BTOP
          Kathy Smith, Chief Counsel, NTIA
          Milton Brown, Audit Liaison, NTIA




                                                  8
Appendix A
Objectives, Scope, and Methodology

We conducted our audit from January 2012 through October 2012 under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
August 31, 2006. We performed all work at the Department of Commerce headquarters.

Our audit’s objectives were to (1) assess whether all subrecipients and vendors were properly
classified and (2) determine whether adequate controls (e.g., reporting, site visits, and
subrecipient consultations) were in place to ensure effective subrecipient monitoring and
compliance with award terms and conditions. We tested the accuracy and reliability of
grantees’ reported results with the grantees’ financial management system and related source
documents for subrecipient reported information. We determined that the data were
sufficiently reliable for the purposes of this report.

We interviewed both NTIA officials and BTOP award recipients. We also reviewed laws,
regulations, policies, procedures, and supporting documentation, including:

       •	 the Department of Commerce Financial Assistance Standard Terms and Conditions and
          Pre-Award Notification Requirements for Grants and Cooperative Agreements,
       •	 subrecipient monitoring guidance, policies and procedures produced by NTIA and
          selected recipients,
       •	 application grant files, progress reports, and corrective action plans,
       •	 subrecipient agreements, and
       •	 supporting documentation (requests for proposals and responses and selection

          committee criteria and scores) for vendors and subrecipients.


After conducting preliminary tests, the audit team focused on projects with subrecipients. The
audit team conducted the following tests:

       •	 a risk and dollar value sample of projects to verify that project partners were properly
          classified as subrecipients or vendors, so that all qualifying expenses were reported, and

       •	 a random sample of projects with subrecipients or subrecipients and vendors, to verify
           that procurement standards were followed for all projects with subrecipients, verify
           compliance with Executive Order 12549 (suspension and debarment), and determine
           whether adequate controls were in place to ensure effective subrecipient monitoring
           and compliance with award terms and conditions. 18

We performed our work in accordance with generally accepted government auditing standards.
These standards require that we plan and perform our audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.


18
     We have recently learned that one grant recipient is under investigation for matters unrelated to this audit.

                                                            9
Appendix B
Summary of Findings by Recipient Category per Table 1
              No Subrecipients or                                                            Subrecipients and
                   Vendors               Only Vendors              Only Subrecipients            Vendors                  Total

  Audit                Dollars (in            Dollars (in                  Dollars (in               Dollars (in             Dollars (in
 Findings    No.        millions)    No.       millions)       No.          millions)    No.          millions)     No.       millions)

 Finding
 I           1         $ 99.7        1        $ 70                                                                 2         $169.7

 Finding
 II                                                            6           $56.1         5           142.5         11         198.6

 Finding
 III.A                                                         3            14.5                                   3          14.5

 Finding
 III.B                                                         3            49.5         4            34.8         7          84.3

 Finding
 IV          9            370        6         295.2                                                               15         665.2


                                                            Other matters


   A         3            62.5       3         168             2           19.3          4            99.7         12         349.5


   B1*                               1         25.7                                                                1          25.7


   B2        1             26        1         50.6            2           16.2          1            13.8         5          106.6


   B3                                                          1           13.8          2             4.0         3          17.8
Source: Dollar values are calculated based on award amounts in the www.FederalReporting.gov data extract.
*Findings B1, B2, and B3 refer to the three bulleted paragraphs in section B under Other Matters.




                                                                     10
Appendix C
Agency Response


                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Assistant Secretary for Communications
                                                             and Information
                                                             Washington, D.C. 20230



                                                                 JAN 1 8 2013

       The Honorable Todd J. Zinser
       Inspector General
       United States Department of Commerce
       1401 Constitution Avenue, N.W.
       Washington, DC 20230

       Dear Mr. Zinser:                                                                                    i

                                                                                                           h
                                                                                                           r~
       This letter responds to your December 13,2012, draft report Proper Classification and
       Strengthened Monitoring ofSubrecipients Are Neededfor the Broadband Technology
       Opportunities Program (Draft Report). The National Telecommunications and Information
       Administration's (NTIA) monitoring processes and tools serve a valuable function in our
       oversight of the Broadband Technology Opportunities Program (BTOP), a $4 billion grant
       program authorized by the American Recovery and Reinvestment Act of2009 (Recovery Act). I
       appt·eciate that your office recognizes NTIA has taken steps, such as conducting extensive site
       visits, issuing considerable guidance and providing substantial training, to assess and monitor
       recipients' operating procedures, including classifying and monitoring subrecipients.

       Ultimately, rec.ipients are responsible for classifying subrecipients and vendors, and properly
       monitoring any subrecipients, because NTIA's conlTactual relationship is with tbe recipient, not
       any subrecipient. As the Office of Inspector General (OIG) emphasized, NTIA is responsible for
       monitoring recipient grant compliance and each recipient, in turn, is responsible to NTIA for
       monitoring its subrecipients' compliance.

       As noted in previous reports, NTIA bas implemented a rigorous monitoring and oversight plan
       for BTOP grants. This oversight includes multiple reviews of recipients' adherence to their
       subrecipient monitoring requirements, including performance report reviews, risk assessment
       analysis, and site visit feedback. In addition, NTIA bas provided recipients with repeated
       guidance regarding the BTOP subrecipient monitoring requirement. Tbis guidance ranges from
       the B.TOP Recipient Handbook and fact sheets, which are readily available on the B.TOP
       website, to compliance training during recipient workshops and webinars.

       We acknowledge your recommendations and, as outlined below, we are taking steps to address
       them.

       Review S!4brecipie1Jt Relationships and Implement Review Procedures to Classify
       Subrecipients

       The Draft Report recommends that NTIA review S TOP grants for subrecipient relationships and
       implement review procedures to help recipients properly classify subrecipients. In the event that



                                                      -1-




                                                        11
NTIA determines that vendors were improperly identified, the Draft Report recommends that
NTIA assist recipients to appropriately classify entities under their awards.
NTIA has taken a number of steps to educate recipients about properly classifying and
distinguishing subrecipients and vendors. In addition to the guidance provided in OMB Circular
A~133, section 210, NTIA has provided detailed inst1uctions, a checklist, and frequently asked
questions. on its website since August 2010. This guidance emphasizes the importance of proper
classification for recipients to remain in compliance with procurement and reporting
requirements, Recovery Act reports, and financial audits. NTIA also works with the NOAA and
NIST Grants Offices to revisit classifications for any award where the recipient requests an
award modification.

As noted above, however, the recipient is responsible for determining whether to classify an
entity as a subrecipient or vendor under the criteria in OMB Circular A-133. For the two
recipients referenced in the Draft Rt<port, NTIA staff reviewed each of those situations with the
recipients early in the award period and reached mutual conclusions as to how to classify them.
For these particular awards, the vendors providing services are design and build construction
firms lhat can be replaced with other vendors if the contract terms are not met.

Review Projects for Three- Year Completion and Assift Recipientf to Address Potential Risks

The Draft Report recommends that NTIA review all BTOP projects to ensure they will be
completed on time. Where needed, the Draft Report recommends that NTIA accelerate projects
Rnd assist n~~~ipienl·s in addnt$Sing potential risks to projeds or issues delaying th~ir progress.

BTOP staff regularly evaluate projects' progress against the completion of goals established in
their awards and baseline projections. Staff also evaluates quarterly report data to consider
whether project~ are meeting their promised schedules, based on several dimensions, including:

    •   Federal expenditures
    •   Match expenditures
    •   Progress against applicable Key Performance Indicators (Network Miles, Community
        Anchor Institutions, etc.)

This evaluation provides a granular view of project activities to aid staff in diagnosing_progress
and trends. In cases where staff identifies a risk, they address the concern with the recipient and
report back on the recipient's activities to mitigate the risk (e.g., parallel con~'truction activities,
hiring additional persmmel). NTIA will continue to monitor projects towards completion and
expects the majority of its projects to complete by September 30,2013.

Ensure Recipients Have Sufficient Subrecipient Monitoring Plans

The Draft Report recommends that NTIA: 1) message to recipients that having formal
subrecipient monitoring plans in place is a best practice; and 2) reemphasize to recipients the



                                                  -2-




                                                   12

importance of including all BTOP provisions in subrccipicnt agreements and the importance of
meeting the terms and conditions of the award.

Since the beginning of the program, NTTA has provided guidance outlining the compliance
responsibilities of all BTOP recipients for monitoring their subrecipients, as described in OMB
Circular A-133, section 400. For example, we included guidance in the BTOP Recipient
Handbook regarding the recipient responsibilities for subrecipient and vendor oversight, as well
as providing a separate Subrecipient Monitoring Fact Sheet. In addition, NTIA has continuously
advised recipients to consider these responsibilities and has emphasized in both the BTOP
Recipient Handbook and Subrecipient Monitoring that we consider a written .subrecipient
monitoring plan, along with regular other monjtoring techniques, such as regular
communications, compliance training, desk reviews, audit reviews, and sile visits to be
monitoring bcsl practices. See BTOP Recipient Handbook, available at
http://www2.ntia.doc.gov/files/Recipient Handh01)k v 1.1 122 11O.pdf/Jnage-1; See also,
Subrecipienl Monitoring Fact Sheet, available at
http://www2.ntia.doc.gov/files/subrecipient monitoring fact sheet 032 111 tinal.pdf.

During site visits, NTlA asks recipients about steps they have taken to monitor subrecipients.
NTlA's BTOP Site Visit Checklist requires staff to discuss the recipients' subrecipient
monitoring plan and evaluate the adequacy and likely effectiveness of the plan. If a recipient
docs not have a written plan, then Federal Program Officers (FPOs) ask other questions to
analyze subrecipient monitoring i:ompUance. FPOs also have regular monitoring calls with
recipients where s••bn>~ipient monitoring is a regular discussion topic.

ln February 2012, NTTA released a fact sheet to recipients providmg detailed gUidance on
specific contract provisions that must flow down to all contracts with subrecipients and
contractors under their BTOP awards. During site visits, staff often picks a particular
procurement and reviews the contracts to ensure the proper flow down terms and conditions are
included. For the particular contracts that OIG identified in the Draft Report, NTIA has taken
additional steps to notify those recipients that their subrecipicnl contracts must contain the
appropriate terms and conditions. NTIA will also communicate the issues OIG t'aised in this
report with recipients, as a reminder to check for and if applicable, correct these issues for their
awards.

Notify R m:ipienls of Vendor/Subrecipient Payment R eporting Requirement~ to
www.F ederalReporting.gov

The Draft Report recommends that NTIA notify recipients of lhe vendor/subrecipient payment
reporting reqllirements to www.FederaiReporting.gov pursuant to OMB M-09-21 and to develop
procedures to monitor reporting and ensure compliance.

NTTA will remind BTOP recipients that this information should be included in this quarterly
Recovery Act reports.



                                                 -3-




                                                  13

Strengthen Internal Conlrols for Reviewing Required Financial Information and R eports on
www.Recovery.gov

']be Draft Report recommends that NTIA: 1) work with grant officers to strengthen internal
controls with regard to reviewing and reconciling all required financial information and reports
included on the www.Recoverv.gov website; and 2) provide additional guidance as to what
information should be reported as federal expenditures and the importance of consistency
between the reported expenditures and information included in recipients' financial records.

NTIA requires staff to a~k recipients about differences between their Recovery Act fmancials
and SF-425 financials. While the program knows that common reasons tor variations include
definitional and timing differences between the reports, we typically follow up to better
understand the variances. NTlA intends to provide recipients an audit wcbinar to educate
recipients about issues matching their reports with their underlying books and records.

Ertablish Internal Controls to encourage Recipients to Review Ve11dors a11d their Prmcipals
for Suspension and Debarment

The Draft Report recommends that NTIA: 1) encourage recipients to review vendors and their
principals for suspension and debarment throughout the life of the grant; 2) encourage recipients
to promote proper competition in their vendor selections; and 3) ensure that the recipients
reviewed in OIG's sample that did not provide vendor contracts maintain vendor contra~ts in the
future.

NTIJ\ continuously emphasizes to recipients the importance of reviewing vendors, subrecipients,
and their respective principals for suspension and debarment throughout their BTOP award
periods. ln November 2012, NTIA informed all BTOP recipients of the Federal government's
move to the System for Award Management (SAM), which includes the consolidation of
functions from the Central Contractor Regi~iry (CCR) and the Excluded Parties List System
(EPLS). NTIA took this opportunity to remind recipients that they should search the EPLS for
any entities that are declared ineligible from receiving Federal contracts, assistance, benefits, or
certain subcontracts.

NTTA encourages recipients to select contractors and subrecipients in a marmer that provides, to
tbe maximum extent practicable, open and fair competition. ln guidance available to recipients
since August 201 0, NTIA advised recipient~ that any contractor or subrccipicnt that developed or
drafted specifications, requirements, statements of work, invitations for bids, and/or requests for
proposals should be excluded from competing for such contracts and subawards. Recipients are
also required to perform a cost or price analysis in connection with the award of each contract.
Generally, NTIA and the Grants Offices have allowed recipients to use a sole source selection
based on a noncompetitive proposal only after the recipient has submitted a cost analysis of the
proposal and justified that tbe award of the contract is infeasible under any other method;
however, we permitted .recipients to award contracts to partners identified in their applications
without a formal procurement process. In fact, NTTA encouraged applicants to describe


                                               . -4-




                                                 14

relationships with prospective vendors in their applications. Although the DOC Uniform
Administrative Requirement of 15 C.F.R. Parts 14 and 24 allow the Grants Offices to request and
review certain contract documents; they do not establish a mandatory approval process for
competitive or sole source procurements. Nevertheless, NTIA b.elieves that the due diligence
process provided both NTIA and its Grants Offices adequate opportunity to review these
proposed relationshlps prior to award .

. NTIA is currently following up on the OIG's finding that three BTOP recipients did not provide
  vendor contracts upon request. We have verified that the recipients maintained vendor contracts,
  but those contracts did not contain the appropriate flow down terms and conditions. At this
  point, recipients have issued most of their contracts, but NTIA has reminded staff of those
  requirements. Accordingly, NTIA can take appropriate steps to help recipients remain in
  compliance with departmental regulations.

I look forward to continuing to work with you as NTIA carries out this important program to
expand broadband access and adoption in the United States, create jobs, and lay a new
foundation. for economic growth in America. IfNTIA may be of further assistance, please
contact Milton Brown, N11A's Liaison to the OIG, at (202) 482-1853.

                                                       Sincerely,
                                                                                       .   '




cc:
                                                      ct:it:d
        Ann Eilers, Principal Assistant Inspector 'General for Audit and EvaluatiO"n
        Anthony Wilhelm, Associate Administrator, Office of Telecommunications and
        Information Application, NTIA
        Milton Brown, NTIA Audit Liaison
        Chris Rose, Senior Auditor, Recovery Act Task Force, OTG
        Aimee Meacham, Director ofBTOP Program Services, NTIA




                                                -5-




                                                 15

